                                          UNCLASSIFIED




              INTELLIGENCE COMMUNITY INSPECTORS GENERAL FORUM
                                     WASHINGTON, DC 20511

                                                                                     10 April 2014


                      Statement of the Inspectors General of the
              Intelligence Community, the Central Intelligence Agency,
        the Department of Justice, and the Department of Homeland Security
   on the Completion of the IC IG Forum Review of the Boston Marathon Bombings


The Inspectors General (IG) of the Intelligence Community (IC), the Central Intelligence Agency
(CIA), the Department of Justice (DOJ), and the Department of Homeland Security (DHS) today
issued their report examining the U.S. government’s handling and sharing of information prior to
the Boston Marathon bombings. The full report is classified. An unclassified summary of the report
also has been released. Based on all the information gathered during our coordinated review, we
believe the FBI, CIA, DHS, and NCTC generally shared information, and followed procedures
appropriately. We identified a few areas where broader information sharing between agencies may
have been required, or where broader information sharing in the future should be considered.

On April 15, 2013, two pressure cooker bombs placed near the finish line of the Boston Marathon
detonated within seconds of each other, killing three and injuring more than two hundred people.
Law enforcement officials identified brothers Tamerlan and Dzhokhar Tsarnaev as primary
suspects in the bombings. Law enforcement officials ultimately encountered Tamerlan and
Dzhokhar Tsarnaev in Watertown, Massachusetts. Tamerlan Tsarnaev was shot during the
encounter and was pronounced dead shortly thereafter. Dzhokhar Tsarnaev, who fled the scene,
was apprehended the following day and remains in federal custody.

Tamerlan Tsarnaev and his mother previously had come to the attention of the Federal Bureau of
Investigation (FBI) based on information received from the Russian government in March 2011.
The FBI-led Joint Terrorism Task Force in Boston (Boston JTTF) conducted an assessment of
Tamerlan Tsarnaev to determine whether he posed a threat to national security and closed the
assessment three months later having found no link or “nexus” to terrorism.

In September 2011, the Russian government provided the CIA information on Tamerlan Tsarnaev
that was substantively identical to the information the Russian Government had provided to the FBI
in March 2011. In October 2011, the CIA provided information obtained from the Russian
government regarding Tamerlan Tsarnaev to the National Counterterrorism Center (NCTC) for
watchlisting purposes, and to the FBI, DHS, and the Department of State for their information.
Upon NCTC’s receipt of the information, Tamerlan Tsarnaev was added to the terrorist watchlist.

Three months later, in January 2012, Tamerlan Tsarnaev traveled to Russia. He spent
approximately six months in Russia, returning to the United States in July 2012. Tsarnaev’s travel




                                          UNCLASSIFIED
                                           UNCLASSIFIED


to Russia did not result in additional vetting at the airport or prompt additional investigative steps
to determine whether he posed a threat to national security.

Following the bombings, the Intelligence Community Inspectors General Forum, with the support of
the Director of National Intelligence (DNI), determined that the Inspectors General of the IC, CIA,
DHS, and DOJ would conduct a coordinated review of the handling and sharing of information
available to the U.S. government prior to the Boston Marathon bombings. The objectives of this
review were to determine:

       o   The extent of the information available to the U.S. government concerning the relevant
           individuals and events preceding the Boston Marathon bombings;

       o   Whether the sharing of information was complete, accurate, and in compliance with U.S.
           counterterrorism and information sharing, policies, regulations, and U.S. laws; and

       o   Whether there are weaknesses in protocols and procedures that impact the ability to
           detect potential threats to national security.

To meet these objectives, the Offices of Inspector General (OIGs) sought to determine what
information was known to the U.S. government prior to April 15, 2013, and to identify what
additional information existed and may have been available to the U.S. government before the
bombings. In considering whether information that existed prior to the bombings was “available”
to the U.S. government, the OIGs took into account the limited facts known to U.S. government
agencies prior to the bombings and the extent of the government’s authority under prevailing legal
standards to access that information.

The review was conducted by teams from the OIGs of the DOJ, CIA, DHS, and the IC. The OIGs
reviewed thousands of documents and interviewed more than 160 individuals, including senior
CIA, FBI, DHS, and NCTC officials. Each OIG was responsible for obtaining and reviewing relevant
information from the agencies within its respective oversight jurisdiction. While the review teams
shared relevant documents, attended briefings, and participated jointly in interviews of certain
witnesses, each OIG was responsible for evaluating the actions of, and information available to, its
respective agencies. Additionally, each OIG conducted or directed its component agencies to
conduct database searches to identify relevant pre-bombing information.

Each participating OIG reached conclusions about the actions taken or not taken by its component
agencies. Our most significant specific conclusions are described in the public summary released
today. These include the following:

   •   The DOJ OIG concluded that, given the limited information available to the Boston JTTF in
       March 2011 concerning Tamerlan Tsarnaev, the FBI’s decision to open the investigation at
       the assessment level was an application of the “least intrusive method” principle set forth in
       the Attorney General Guidelines and FBI policy within its investigative discretion. The DOJ
       OIG found that additional investigative steps would have resulted in a more thorough
       assessment, but that it is impossible to know whether these additional steps would have
       yielded relevant information.

   •   The DOJ and CIA OIGs found that the FBI Legal Attaché in Moscow did not coordinate with
       the CIA in March 2011 after receiving the lead information from the Russian government


                                                  [2]

                                           UNCLASSIFIED
                                           UNCLASSIFIED


       concerning Tamerlan Tsarnaev. However, the OIGs also concluded that the CIA’s
       involvement in March 2011 likely would not have provided the FBI with information that
       could have been helpful to the Boston JTTF’s assessment of Tamerlan Tsarnaev.

   •   The DOJ and DHS OIGs reviewed whether FBI and Customs and Border Protection (CBP)
       staff were alerted to Tsarnaev’s travel to and from Russia in 2012. The OIGs believe that the
       FBI agent who handled the Tsarnaev assessment most likely received notice of Tsarnaev’s
       outbound flight, but were unable to determine this fact conclusively. The DOJ and DHS OIGs
       also could not determine conclusively whether the FBI agent received notice of Tsarnaev’s
       return flight. The DOJ OIG believes that Tsarnaev’s travel to Russia was significant and
       warranted further investigation, but that it is impossible to know what additional
       information may have surfaced through further investigation.

   •   The DHS OIG examined whether CBP vetted Tsarnaev’s outbound travel to Russia according
       to policies and procedures and determined that it did so. The DHS OIG determined that CBP
       properly admitted Tsarnaev into the United States in July 2012 after taking Tsarnaev’s
       picture, collecting his fingerprints, and confirming his identity and his status as a lawful
       permanent resident.

   •   The DHS OIG examined the adjudication of Tamerlan Tsarnaev’s 2012 application for
       naturalization by the U.S. Citizenship and Immigration Services (USCIS) and concluded that,
       with one exception, the USCIS conducted the naturalization processes in accordance with
       the requirements of the Immigration and Nationality Act and USCIS policies and procedures.

The report makes two recommendations, one recommending that the FBI and DHS clarify JTTF
alert procedures and another recommending that the FBI consider establishing a procedure for
sharing threat information with state and local partners more proactively and uniformly.

IC IG I. Charles McCullough, III, stated: “The report released by the four IGs today provides a
comprehensive and independent review of the handling and sharing of information leading up to
the Boston Marathon bombings, and provides recommendations to improve those critical
processes. While the full report has been classified, it has been provided to Congress through
appropriate means, and it is the hope of all of us who participated in this review that it, coupled
with the public summary that we are pleased to be able to release today, will add considerably to
the understanding of the issues discussed in the report and, ultimately, help contribute to the safety
and security of our country as a result.”




                                                 [3]

                                           UNCLASSIFIED
